                               NATIONAL SCIENCE FOLlNDATlON
                                    4201 Wilson Boulevard
                                     ARLINGTON, VIRGINIA 22230




     OFFICE OF
INSPECTORGENERAL


  MEMORANDUM


  DATE:            March 2 1, 2006


  TO:              Bradley Poston, Interim Director
                   I&vision of Acquisition and Cooperative Support (DACS)
                   AjuLkAfJ.-
  FROM:            Deborah H. Cureton
                   Associate Inspector General for Audit


  SUBJECT:         NSF OIG Audit Report No. OIG-06-1-003, Audit of University Navstar
                   Consortium (UNAVCO), Inc.'s Fiscal Year 2003 and 2004 Incurred Costs


  In respoilse to your request for an audit of the UIVAVCO Fiscal Year (FY) 2003-2004
  incurred cost proposal submission claimed under award Nos. EAR-0323700, EAR-
  0318549, and EAR-0321760, we contracted with the Defense Contract Audit Agency
  (DCAA), Denver Branch Office to perform audits that: 1) detennine the adequacy of
  UNAVCO's accounting system to record NSF award costs accurately, 2) determiile
  allowability, allocability, and reasoilableiless of the costs UNAVCO incurred under the
  awards in accordance with the grant tenns and applicable govenlment regulations, 3)
  verify whether UNAVCO is accounting for government owned property accurately, 4)
  verify if UNAVCO is adhering to NSF Grant Officer Guidance regarding Separation
  Agreeineilt Compensation and, 5) coilfinn whether Executive Compensation is
  reasonable. These DCAA audits were performed in accordance with Generally Accepted
  Govern~llentAuditing Standards. The DCAA Audit Reports are included as Attachments
  to this letter.

  The UIVAVCO Accountiilg Systein DCAA Audit Report, dated September 30, 2005, was
  previously provided to your office and determined that UNAVC07s accouilting system
  could adequately account for NSF award costs.
             DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 3121– 2003J10100023

                                                                       October 7, 2005

PREPARED FOR: Office of Inspector General
              ATTN: Deborah H. Cureton
              Associate Inspector General for Audit
              National Science Foundation
              4201 Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:      DCAA Denver Branch Office
                  7112 West Jefferson Ave, Suite 200
                  Lakewood, CO 80235-2327
                      Telephone No.     (303) 969-5000
                      FAX No.           (303) 969-5056
                      E-mail Address    dcaa-fao3121@dcaa.mil

SUBJECT:          Audit Report on UNAVCO, Inc. FY 2003 Incurred Cost

REFERENCES::      Client Reference ID: OIG-0541756
                  Relevant Dates: See Page 8

AUDITEE:          University Navstar Consortium, Inc.
                  6350 Nautilus Drive
                  Boulder, CO 80301

REPORT RELEASE RESTRICTIONS: See Page 9

CONTENTS:          Subject of Audit                                               1
                   Scope of Audit                                                 1
                   Results of Audit                                               2
                   Auditee Organization and Systems                               7
                   DCAA Personnel and Report Authorization                        8
                   Audit Report Distribution and Restrictions                     9
                   Appendixes                                                    11




                            FOR OFFICIAL USE ONLY
Audit Report No. 3121– 2003J10100023



                                     SUBJECT OF AUDIT

        We examined the University Navstar Consortium, Inc. (UNAVCO) July 15, 2005,
certified direct cost proposal and related books and records for reimbursement of FY 2003
incurred costs. The purpose of the examination was to determine allowability of direct costs and
recommend contracting officer-determined direct costs for January 1, 2003 through December
31, 2003. The proposed direct costs are for cost reimbursable grants listed in Exhibit A, page 3.
A copy of UNAVCO's Certificate of Final Direct Costs, dated July 15, 2005, is included as
Appendix 1 to the report (see page 11).
       The proposal is the responsibility of the auditee. Our responsibility is to express an
opinion based on our examination.

                                       SCOPE OF AUDIT

       We conducted our examination in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the examination to obtain
reasonable assurance about whether the data and records examined are free of material
misstatement. An examination includes:

       •    evaluating the auditee's internal controls, assessing control risk, and determining the
            extent of audit testing needed based on the control risk assessment;
       •    examining, on a test basis, evidence supporting the amounts and disclosures in the
            data and records evaluated;
       •    assessing the accounting principles used and significant estimates made by the
            auditee;
       •    evaluating the overall data and records presentation; and
       •    determining the need for technical specialist assistance.

       We evaluated the proposal using the applicable requirements contained in the:

       •   Office of Management and Budget Circular A-110 (OMB Circular A-110);
       •   OMB Circular A-122; and
       •   OMB Circular A-133.

        Our assessment of control risk reflects that we have not specifically tested the
effectiveness of UNAVCO’s accounting system and related internal controls. The scope of our
examination reflects our assessment of control risk and includes tests of compliance with laws
and regulations that we believe provide a reasonable basis for our opinion. See Auditee
Organization and Systems for comments related to the accounting system (page 7).




                                           1
                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121– 2003J10100023



                                    RESULTS OF AUDIT

Direct Costs

        In our opinion, claimed direct costs are acceptable and are provisionally approved,
pending final acceptance. Final acceptance of amounts proposed under Government grants does
not take place until performance under the grant is completed and accepted by the cognizant
authorities and the audit responsibilities have been completed.

       Exhibit A is Schedule of Allowable Costs by Grant and Results of Examination. Exhibit B is
the Summary Schedule of Cumulative Allowable Costs/Amounts on Cost/Cost Reimbursable and
Sub-Recipients through December 31, 2003.

       Cumulative Allowable Cost Worksheet (CACWS). The costs noted on the schedule of
cumulative allowable costs in Exhibit B, page 5 represent costs that are considered allowable
under the listed grants and are, therefore, reimbursable. However, these direct costs are
contracting officer (CO) determined and are, therefore, subject to negotiation. Upon receipt of
negotiated final direct costs from the CO, we will provide a supplemental Final CACWS if
negotiated direct costs differ from audit recommended direct costs. For those grants identified as
“Ready to Close,” the information on the Final CACWS should be used to close out grants.
Individual grant audit closing statements will only be issued if requested by the CO.


We discussed the results of our examination with xx xxxxxx xxxxxx, xxxxxxxxxx xxxxxxx, in
an exit conference held on October 6, 2005. xxxxxxxxx concurred in the results of our audit.




                                           2
                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121– 2003J10100023

                                                                                                               EXHIBIT A
                                                                                                                Page 1 of 2

                                            Schedule of Allowable Costs by Grant
                                                          FY 2003

                                 Salaries     Salaries                              Travel        Travel       Participant
 Project No.     Job Grant No.    Senior        Other       Fringe      Equipment   Domestic   International     Support
0001           EAR-0200066       xxxxxxx       xxxxxxx      xxxxxxx       xxxxxxx    xxxxxxx        xxxxxxx    $      8,371
0002           EAR-0229402       xxxxxxx       xxxxxxx      xxxxxxx       xxxxxxx    xxxxxxx        xxxxxxx    $      3,136
0003           EAR-0207982       xxxxxxx       xxxxxxx      xxxxxxx       xxxxxxx    xxxxxxx        xxxxxxx    $    (11,104)
0004           EAR-0214355       xxxxxxx       xxxxxxx      xxxxxxx       xxxxxxx    xxxxxxx        xxxxxxx    $        -
0005           EAR-0331712       xxxxxxx       xxxxxxx      xxxxxxx       xxxxxxx    xxxxxxx        xxxxxxx    $     33,814
0006           EAR-0321760       xxxxxxx       xxxxxxx      xxxxxxx       xxxxxxx    xxxxxxx        xxxxxxx    $      1,979
0013 Rest      EAR-0321760       xxxxxxx       xxxxxxx      xxxxxxx       xxxxxxx    xxxxxxx        xxxxxxx    $        -
0007           EAR-0323700       xxxxxxx       xxxxxxx      xxxxxxx       xxxxxxx    xxxxxxx        xxxxxxx    $     20,851
0008           EAR-0323704       xxxxxxx       xxxxxxx      xxxxxxx       xxxxxxx    xxxxxxx        xxxxxxx    $        -
0009           EAR-0318549       xxxxxxx       xxxxxxx      xxxxxxx       xxxxxxx    xxxxxxx        xxxxxxx    $      3,974
0013 -03       EAR-0408228       xxxxxxx       xxxxxxx      xxxxxxx       xxxxxxx    xxxxxxx        xxxxxxx    $        -
0013 -08       EAR-0440399       xxxxxxx       xxxxxxx      xxxxxxx       xxxxxxx    xxxxxxx        xxxxxxx    $        -
0014           EAR-0346147       xxxxxxx       xxxxxxx      xxxxxxx       xxxxxxx    xxxxxxx        xxxxxxx    $        -
0015           Various PO's      xxxxxxx       xxxxxxx      xxxxxxx       xxxxxxx    xxxxxxx        xxxxxxx    $        -
0017            EAR-0453975      xxxxxxx       xxxxxxx      xxxxxxx       xxxxxxx    xxxxxxx        xxxxxxx    $        -




                                                         3
                                               FOR OFFICIAL USE ONLY
    Audit Report No. 3121– 2003J10100023

                                                                                                            EXHIBIT A
                                                                                                             Page 2 of 2

                                           Schedule of Allowable Costs by Grant
                                                         FY 2003

0001        EAR-0200066        xxxxxxx     xxxxxxx        xxxxxxx     xxxxxxx     xxxxxxx   xxxxxxx   $      951   $ 153,607
0002        EAR-0229402        xxxxxxx     xxxxxxx        xxxxxxx     xxxxxxx     xxxxxxx   xxxxxxx   $   46,950   $ 556,745
0003        EAR-0207982        xxxxxxx     xxxxxxx        xxxxxxx     xxxxxxx     xxxxxxx   xxxxxxx   $      634   $ (10,316)
0004        EAR-0214355        xxxxxxx     xxxxxxx        xxxxxxx     xxxxxxx     xxxxxxx   xxxxxxx   $      -     $ 159,516
0005        EAR-0331712        xxxxxxx     xxxxxxx        xxxxxxx     xxxxxxx     xxxxxxx   xxxxxxx   $       57   $    35,756
0006        EAR-0321760        xxxxxxx     xxxxxxx        xxxxxxx     xxxxxxx     xxxxxxx   xxxxxxx   $   89,692   $ 1,059,529
0013 Rest   EAR-0321760        xxxxxxx     xxxxxxx        xxxxxxx     xxxxxxx     xxxxxxx   xxxxxxx   $    6,974   $    55,285
0007        EAR-0323700        xxxxxxx     xxxxxxx        xxxxxxx     xxxxxxx     xxxxxxx   xxxxxxx   $   29,568   $ 735,735
0008        EAR-0323704        xxxxxxx     xxxxxxx        xxxxxxx     xxxxxxx     xxxxxxx   xxxxxxx   $      -     $       -
0009        EAR-0318549        xxxxxxx     xxxxxxx        xxxxxxx     xxxxxxx     xxxxxxx   xxxxxxx   $   11,034   $ 113,616
0013 -03    EAR-0408228        xxxxxxx     xxxxxxx        xxxxxxx     xxxxxxx     xxxxxxx   xxxxxxx   $      -     $     6,080
0013 -08    EAR-0440399        xxxxxxx     xxxxxxx        xxxxxxx     xxxxxxx     xxxxxxx   xxxxxxx   $      -     $       -
0014        EAR-0346147        xxxxxxx     xxxxxxx        xxxxxxx     xxxxxxx     xxxxxxx   xxxxxxx   $      -     $       -
0015        Various PO's       xxxxxxx     xxxxxxx        xxxxxxx     xxxxxxx     xxxxxxx   xxxxxxx   $      -     $       301
0017         EAR-0453975       xxxxxxx     xxxxxxx        xxxxxxx     xxxxxxx     xxxxxxx   xxxxxxx   $      -     $       -




                                                        4
                                              FOR OFFICIAL USE ONLY
Audit Report No. 3121– 2003J10100023

                                                                                                                   EXHIBIT B
                                                                                                                    Page 1 of 2

                                   Summary Schedule of Cumulative Allowable Costs/Amounts
                                      on Cost/Flexibly Priced Grants and Sub-Recipients
                                                           FY 2003

                                                    Audit
                                 Unaudited     Recommended                                                 Total          Assist
                                Direct Costs    Direct Costs                                   Less      Allowable       Amounts
                                    FY               FY                                      Contract      Costs       Included in Ready
                                12/31/2002       12/31/2003     *     Fee                   Limitation (Include Fee)      Total     to
 Project No.    Job Grant No.     (Note 1)        (Note 2)          FY 2003      Subtotal    (Note 3)     (Note 4)       (Note 5) Close
0001           EAR-0200066      $ 91,925       $     153,607                 $      245,532 $     -    $    245,532     $     -      N
0002           EAR-0229402      $ 152,256      $     556,745                 $      709,001 $     -    $    709,001     $     -      Y
0003           EAR-0207982      $ 50,000       $      (10,316) **            $       39,684 $     -    $     39,684     $     -      Y
0004           EAR-0214355      $       -      $     159,516                 $      159,516 $     -    $    159,516     $     -      N
0005           EAR-0331712      $       -      $       35,756                $       35,756 $     -    $     35,756     $     -      Y
0006           EAR-0321760      $       -      $ 1,059,529          $ 25,000 $    1,084,529 $     -    $ 1,084,529      $     -      N
0013           EAR-0321760      $       -      $       55,285                $       55,285 $     -    $     55,285     $     -      N
0007           EAR-0323700      $       -      $     735,735        $ 25,000 $      760,735 $     -    $    760,735     $     -      N
0009           EAR-0318549      $       -      $     113,616                 $      113,616 $     -    $    113,616     $     -      N
0013 -03       EAR-0408228      $       -      $        6,080                $        6,080 $     -    $       6,080    $     -      N
0015           Various PO's     $       -      $          301                $          301 $     -    $         301    $     -      N

See next page for notes.




                                                             5
                                                   FOR OFFICIAL USE ONLY
Audit Report No. 3121-2003J10100023

                                                                                     EXHIBIT B
                                                                                      Page 2 of 2


        *The direct costs for FY 2003 are the audit recommended direct costs. Although
UNAVCO concurred in the audit recommended direct costs, these direct costs are subject to
Contracting Officer (CO) negotiation. Upon receipt of negotiated final direct costs from the CO,
we will provide a supplemental Final CACWS if negotiated direct costs differ from audit
recommended direct costs. For those grants identified as “Ready to Close,” the information on
the Final CACWS should be used to close out grants. Individual grant audit closing statements
will only be issued if requested by the CO.

      * *( ) is a decrease in cost. UNAVCO provided funding for a UCAR workshop in FY
2002. However, the workshop costs totaled $39,684. The final billed was not submitted until
FY 2003. The adjustment was made in FY 2003 to credit back NSF.

Notes:

(1) These are direct costs by grant for FY 2002. However, NSF did not request DCAA to audit
FY 2002 direct costs claimed by UNAVCO.
(2) These are audit recommended direct costs by grant for FY 2003.
(3) Grant limitation include costs incurred that are (i) in excess of grant ceiling rates, (ii)
unallowable per grant, (iii) outside the period of performance, or (iv) in excess of grant ceiling
amounts that are not already excluded.
(4) The cumulative allowable amounts in this column, including fee, are not to exceed grant-
ceiling amounts.
(5) Costs in this column are considered unresolved pending sub-recipient completion and receipt
of final cumulative allowable sub-recipient costs. See the attached supporting schedule for
details of sub-recipients included in this amount.




                                           6
                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121-2003J10100023


                      AUDITEE ORGANIZATION AND SYSTEMS

1. Organization:

           UNAVCO, Inc. is a non-profit membership-governed organization founded by the
   National Science Foundation and NASA that supports earth science by advancing high-
   precision geodetic techniques such as the Global Positioning System (GPS). It is the
   operating arm of the 100-member international consortium of universities using GPS for
   scientific research, supporting research into earth processes and hazards via GPS geodesy,
   and developing and supporting new low-cost GPS technology.
           UNAVCO, Inc. was created as an independent non-profit corporation in 2001, after
   splitting off from the University Corporation for Atmospheric research (UCAR). UNAVCO
   employs 85 people. Grants for fiscal year ended 2003 were $2.9 million.

2. Accounting System:

          We noted UNAVCO changed its Accounting System Policies and Procedures in
   March 2005. Therefore, the accounting system performed August 1, 2005 would not be
   applicable to incurred costs claimed in FY 2003. As a result, our examination reflects our
   assessment of control risk and includes tests of compliance with laws and regulations that we
   believe provide a reasonable basis for our opinion.

          UNAVCO’s accounting period is from January 1 to December 31. UNAVCO
   maintains an accounting system on the accrual basis in accordance with generally accepted
   accounting principles. UNAVCO’s accounting system is posted on a current basis.
   Appropriate adjusting entries are made at the end of each month and at year end. UNAVCO
   prepares financial statements on an annual basis. The annual financial statements are audited
   by external CPAs.

           UNAVCO maintains a job cost accounting system which is fully integrated in the
   overall accounting system, wherein grants are assigned individual project numbers and direct
   costs are identified and charged to those numbers. Indirect costs are identified with and
   accumulated under individual account pools and anything related to the headquarters pool
   was charged directly to the headquarters pool. All costs are then allocated using the
   following percentages: 55 percent allocated to Grant EAR-0321760, 30 percent allocated to
   grant EAR-0323700; and 15 percent allocated to grant EAR-0318549.




                                          7
                                FOR OFFICIAL USE ONLY
Audit Report No. 3121-2003J10100023


                                      DCAA PERSONNEL

                                                                       Telephone No.
Primary contacts regarding this audit:

         Madeleine G. Peterson, Auditor                     (303) 969-5000
         Randy Ice, Auditor                                 (303) 969-5000
         Larry N. Koppenhaver, Supervisory Auditor          (303) 969-5000

Other contact regarding this audit report:

         S. M. Wenger, Branch Manager                       (303) 969-5000

                                                                        FAX No.
         Denver Branch Office                               (303) 969-5056

                                                                     E-mail Address
         Denver Branch Office                               dcaa-fao3121@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil.

                                      RELEVANT DATES

       Request for Audit: NSF – Dated July 1, 2005 and received July 11, 2005


AUDIT REPORT AUTHORIZED BY:



                                                           /s/ Larry N. Koppenhaver for
                                                           S. M. WENGER
                                                           Branch Manager




                                           8
                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121-2003J10100023


                 AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
                                                                           E-mail Address
Office of Inspector General
ATTN: Deborah H. Cureton                                                  dcureton@nsf.gov
Associate Inspector General for Audit
National Science Foundation
4201 Wilson Boulevard
Arlington, VA 22230

Senior Audit Manager                                                      jcjenkin@nsf.gov
Ms. Jannifer Jenkins
National Science Foundation
4201 Wilson boulevard
Arlington, VA 22230

Audit Manager
Mr. David Eid                                                               deid@nsf.gov
National Science Foundation
4201 Wilson boulevard
Arlington, VA 22230

Attorney Advisor
Ms. Sharon McGregor                                                      smcgrego@nsf.gov
National Science Foundation
4201 Wilson boulevard
Arlington, VA 22230

UNAVCO, Inc.
6350 Nautilus Drive
Boulder, CO 80301
(Copy furnished thru NSF)


RESTRICTIONS

1. Information contained in this audit report may be proprietary. It is not practical to identify
   during the conduct of the audit those elements of the data which are proprietary. Make
   proprietary determinations in the event of an external request for access. Consider the
   restrictions of 18 U.S.C. 1905 before releasing this information to the public.

2. Under the provisions of Title 32, Code of Federal Regulations, Part 290.7(b), DCAA will
   refer any Freedom of Information Act requests for audit reports received to the cognizant
   contracting agency for determination as to releasability and a direct response to the
   requestor.
                                           9
                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121-2003J10100023



3. Do not use the information contained in this audit report for purposes other than action on the
   subject of this audit without first discussing its applicability with the auditor.




                                           10
                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121-2003J10100023


                                                   APPENDIX 1




                                     11
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029



              DEFENSE CONTRACT AUDIT AGENCY

             AUDIT REPORT NO. 3121– 2004J10100029


                                                                 October 19, 2005

PREPARED FOR: Office of Inspector General
              ATTN: Deborah H. Cureton
              Associate Inspector General for Audit
              National Science Foundation
              4201 Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:       DCAA Denver Branch Office
                   7112 West Jefferson Ave, Suite 200
                   Lakewood, CO 80235-2327
                       Telephone No.     (303) 969-5000
                       FAX No.           (303) 969-5056
                       E-mail Address    dcaa-fao3121@dcaa.mil

SUBJECT:           Audit Report on UNAVCO, Inc. FY 2004 Incurred Cost

REFERENCES::       Client Reference ID: OIG-0541756
                   Relevant Dates: See Page 18

AUDITEE:           University Navstar Consortium, Inc
                   6350 Nautilus Drive
                   Boulder, CO 80301

REPORT RELEASE RESTRICTIONS: See Page 19
                                                                                    Page
CONTENTS:          Subject of Audit                                                   1
                   Executive Summary                                                  1
                   Scope of Audit                                                     1
                   Results of Audit                                                   2
                   Auditee Organization and Systems                                  16
                   DCAA Personnel and Report Authorization                           18
                   Audit Report Distribution and Restrictions                        19
                   Appendixes                                                        21




                            FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                     SUBJECT OF AUDIT

        We examined the University Navstar Consortium, Inc. (UNAVCO) June 24, 2005,
certified final indirect cost proposal and related books and records for reimbursement of FY 2004
incurred costs. The purpose of the examination was to determine allowability of direct and
indirect costs and recommend contracting officer-determined indirect cost rates for January 1,
2004 through December 31, 2004. The proposed rates apply primarily to the cost reimbursable
grants listed in Exhibit C, page 8. A copy of UNAVCO's Certificate of Final Indirect Costs,
dated June 24, 2005, is included as Appendix 1 to the report (see page 21).

       The proposal is the responsibility of the auditee. Our responsibility is to express an
opinion based on our examination.

                                   EXECUTIVE SUMMARY

         We questioned .36 percent of the claimed G&A rate and $0.40 cents of the claimed
facilities allocation rate. The questioned rates result from questioning the following costs in the
G&A and facilities pool. We took no exception to UNAVCO’s proposed fringe rate.

             Cost Element                                 Amount
             G&A Pool                                     $35,015
             Facilities Pool                              $ 9,086

       Additionally, we recommend an upward adjustment of $33,851 to claimed direct costs as
shown below. This upward adjustment is the result of an allocation error as explained in Exhibit
C, page 8 of this report, and is summarized below by grant.

              Grant                                       Amount
              EAR-0321760                                 $18,618
              EAR-0323700                                 $10,155
              EAR-0318549                                 $ 5,078

                                       SCOPE OF AUDIT

       We conducted our examination in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the examination to obtain
reasonable assurance about whether the data and records examined are free of material
misstatement. An examination includes:

       •    evaluating the auditee's internal controls, assessing control risk, and determining the
            extent of audit testing needed based on the control risk assessment;
       •    examining, on a test basis, evidence supporting the amounts and disclosures in the
            data and records evaluated;
       •    assessing the accounting principles used and significant estimates made by the
            auditee;
       •    evaluating the overall data and records presentation; and


                                  FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


       •    determining the need for technical specialist assistance.

       We evaluated the proposal using the applicable requirements contained in the:

       •   Office of Management and Budget Circular A-110 (OMB Circular A-110);
       •   OMB Circular A-21;
       •   OMB Circular A-122; and
       •   OMB Circular A-133.

        Our assessment of control risk reflects that we have not specifically tested the
effectiveness of UNAVCO’s accounting system and related internal controls. The scope of our
examination reflects our assessment of control risk and includes tests of compliance with laws
and regulations that we believe provide a reasonable basis for our opinion. See Auditee
Organization and Systems for comments related to the accounting system (page 16).

                                     RESULTS OF AUDIT

Direct Costs

       In our opinion, the auditee’s claimed direct costs are acceptable as adjusted by our
examination. We recommended an upward adjustment of $33,851 of direct costs proposed under
Government grants. The upward adjustments were the result of an allocation error in the
UNAVCO Solomon system as explained in Appendix 9, page 36. Questioned direct costs by
element within specific contracts are presented in Exhibit C, page 8. Direct costs not questioned
are provisionally approved pending final acceptance. Final acceptance of amounts proposed
under Government grants does not take place until performance under the grant is completed and
accepted by the cognizant authorities and the audit responsibilities have been completed.

Indirect Rates

      In our opinion, the auditee’s proposed indirect rates are acceptable as adjusted by our
examination. The examination results and recommendations are presented on page 3.




                                           2
                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029



                                     Summary Results of Audit
                             January 1, 2004 through December 31, 2004

                            Claimed                       Questioned
                                   Indirect                           Indirect Audited
        Indirect        Expense      Cost      Expense     Allocation   Cost   Indirect
        Category         Pool        Rate       Pool          Base      Rate     Rate   Ref
     G&A (a)          xxxxxxxxxxxx 16.80%     $ 35,015     $        -   0.36% 16.44% Exhibit A
     Fringe (b)       xxxxxxxxxxxx 50.81%     $       -    $        -   0.00% 50.81%     *
     Facilities (c)   xxxxxxxxxxxx $ 28.19    $ 9,086      $        - $ 0.40 $ 27.79 Exhibit B

            (a) Allocation Base–Modified Total Direct Costs ($9,811,181)
            (b) Allocation Base–Total Salaries and Wages ($xxxxxxxxxx)
            (c) Allocation Base–Net Assignable Square Feet (22,926)
* Our examination of the Fringe overhead did not disclose any exceptions.

        Exhibit A is the Statement of Proposed G&A Expenses and Results of Examination. Exhibit
B is the Statement of Proposed Facilities Expenses and Results of Examination. Exhibit C is the
Schedule of Allowable Costs by Grant and Results of Examination. Exhibit D is the Summary
Schedule of Cumulative Allowable Costs/Amounts on Cost/Cost Reimbursable and Sub-Recipients
through December 31, 2004.

        Cumulative Allowable Cost Worksheet (CACWS). The costs noted on the schedule of
cumulative allowable costs in Exhibit D, page 14, represent costs that are considered allowable
under the listed grants and are, therefore, reimbursable. However, these rates are contracting
officer (CO) determined and are, therefore, subject to negotiation. Upon receipt of negotiated
final rates from the CO, we will provide a supplemental Final CACWS if negotiated rates differ
from audit recommended rates. For those grants identified as “Ready to Close,” the information
on the Final CACWS should be used to close out grants. Individual grant audit closing
statements will only be issued if requested by the CO.


       We discussed the results of our examination with Mr. Cecil Jones, CFO and Ms. Sandra
Garcia, Accounting Manager, in an exit conference held on September 29, 2005. UNAVCO
concurred in the results of our audit. We provided a draft copy of the Results of Audit to the
auditee’s representative at the exit conference. The complete text of the auditee's response
appears as Appendix 9.




                                              3
                                    FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029

                                                                                 EXHIBIT A
                                                                                  Page 1 of 2

                                   Statement of Proposed
                          G&A Expenses and Results of Examination

           Cost Element              Claimed     Questioned Concurred        Subnote
       Facilities Charge          xxxxxxxxxxxx   $      414 $     414           a
       Facilities Allocation      xxxxxxxxxxxx        1,165     1,165           b
       Material Supplies          xxxxxxxxxxxx      10,332     10,332           c
       Other Costs                xxxxxxxxxxxx      18,656     18,656           d
       Part Supp Travel           xxxxxxxxxxxx           86        86           e
       Travel Domestic            xxxxxxxxxxxx        4,362     4,362           f
       Other G&A Costs            xxxxxxxxxxxx          -         -             g
        Total G&A Pool            $ 1,648,254    $ 35,015 $ 35,015

       MTDC Allocation Base       $ 9,811,181                                   h

       G&A Rate
       Claimed                          16.80%
       Questioned                        0.36%
       Audit Recommended Rate           16.44%


Explanatory Notes

      1.      Summary of Conclusions:

              We questioned $35,015 of G&A pool costs as shown below.

              a)     $414 of facilities costs because UNAVCO claimed more facilities costs
                     than recorded in its general ledger.
              b)     $1,165 of facility allocation costs because of questioned costs in the
                     facility pool. Therefore, the facility allocation to the G&A pool was
                     decreased by $1,165.
              c)     $10,332 material supplies because UNAVCO claimed more material and
                     supplies costs than recorded in its general ledger.
              d)     $18,656 of other costs because UNAVCO claimed more other costs than
                     recorded in its general ledger.
              e)     $86 of participant support travel because UNAVCO claimed more travel
                     expenses than recorded in its general ledger.




                                         4
                               FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029



                                                                                   EXHIBIT A
                                                                                    Page 2 of 2

              f)      $4,362 of travel domestic costs because UNAVCO claimed more domestic
                      travel expenses than recorded in its general ledger.
              g)      Other proposed G&A pool costs, no exceptions noted.
              h)      Proposed G&A base costs, no exceptions noted.

       2.     Basis of Auditee’s Cost:

                UNAVCO proposed its final rates using the FY 2004 actual costs charged into the
direct projects and the three indirect cost pools.

       3.     Audit Evaluation:

              We performed the following audit procedures:

              •    Reconciled the Auditee's claimed detailed G&A pool amounts to its general
                   ledger.
              •    Verified claimed G&A pool expenses are allowable according to Circular A-
                   122, Attachment B and UNAVCO’s Cost Policy and Procedures.
              •    Questioned the difference between claimed costs and those costs recorded in
                   UNAVCO’s general ledger.

       4.     Auditee’s Reaction:

              UNAVCO concurred in the questioned G&A costs recorded in its G&A pool.
See Appendix 9 for the Auditee’s full response.




                                            5
                                  FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029



                                                                                             EXHIBIT B
                                                                                              Page 1 of 2

                                          Statement of Proposed
                           Facilities Expenses and Results of Examination

                                                                      Questioned Costs
            Cost Element                           Claimed         Questioned    Concurred          Ref
Grounds Maintenance/Snow Removal                   xxxxxxx     $         9,086   $   9,086           a
Other Facility Costs                               xxxxxxx                 -             -           b
   Total Facility Pool                             $ 646,295   $         9,086   $   9,086

Square Footage Base                                  22,926                -             -           c

 Square Footage Rate
Claimed                                  $ 28.19
Questioned                               $ 0.40
Audit Recommended Rate                   $ 27.79
                                                           Recommended
 Project Allocation                                Claimed   Adjustment          Allowable
EAR-0321760                                        $ 289,093   $         4,064   $ 285,029 Schedule C
EAR-0323700                                        $ 268,712   $         3,778   $ 264,934 Schedule C
EAR-0318549                                        $ 5,638     $            79   $   5,559 Schedule C
G&A Pool                                           $ 82,852    $         1,165   $ 81,687 Exhibit A
   Total                                           $ 646,295   $         9,086   $ 637,209

Explanatory Notes

       1.       Summary of Conclusions:

                We questioned $9,086 of the claimed facility pool costs as shown below.

                a)       $9,086 of grounds maintenance/snow removal costs because these costs
                         were material costs that should have been charged direct to Project 15,
                         Various Purchase Orders Non-NSF. Therefore, we questioned the costs in
                         the facility pool and recommended an upward adjustment to the direct
                         material costs, Project 15 (Non-NSF).
                b)       Other facility costs, no exceptions noted.
                c)       Claimed facility base costs, no exceptions noted.




                                             6
                                   FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029

                                                                                    EXHIBIT B
                                                                                     Page 2 of 2

       2.     Basis of Auditee’s Cost:

                UNAVCO proposed its final rates using the FY 2004 actual costs charged into the
direct projects and the three indirect cost pools.

       3.     Audit Evaluation:

              We performed the following audit procedures:

              •   Reconciled the Auditee's claimed detailed facility pool amounts to its general
                  ledger.
              •   Verified claimed facility pool expenses are allowable according to Circular A-
                  122, Attachment B and UNAVCO’s Cost Policy and Procedures.
              •   Verified the mathematical accuracy of the facility rate calculation.
              •   Questioned the difference between claimed costs and recorded facility costs.

       4.     Auditee’s Reaction:

              UNAVCO concurred in the questioned facility costs recorded in its facility pool.
See Appendix 9 for the Auditee’s full response.




                                            7
                                  FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029



                                                                                                                           EXHIBIT C
                                                                                                                            Page 1 of 6

                                                   Schedule of Allowable Costs by Grant
                                                                 FY 2004

                                                                      Fringe                 Travel-Domestic
    Project #    Job Grant No.   Salaries-Senior   Salaries-Other     50.81%     Equipment       (Note 1)      Travel- International
   0001         EAR-0200066      xxxxxxx           xxxxxxx          xxxxxxx      xxxxxxx     xxxxxxx           xxxxxxx
   0002         EAR-0229402      xxxxxxx           xxxxxxx          xxxxxxx      xxxxxxx     xxxxxxx           xxxxxxx
   0003         EAR-0207982      xxxxxxx           xxxxxxx          xxxxxxx      xxxxxxx     xxxxxxx           xxxxxxx
   0004         EAR-0214355      xxxxxxx           xxxxxxx          xxxxxxx      xxxxxxx     xxxxxxx           xxxxxxx
   0005         EAR-0331712      xxxxxxx           xxxxxxx          xxxxxxx      xxxxxxx     xxxxxxx           xxxxxxx
   0006         EAR-0321760      xxxxxxx           xxxxxxx          xxxxxxx      xxxxxxx     xxxxxxx           xxxxxxx
   0013 Rest EAR-0321760         xxxxxxx           xxxxxxx          xxxxxxx      xxxxxxx     xxxxxxx           xxxxxxx
   0007         EAR-0323700      xxxxxxx           xxxxxxx          xxxxxxx      xxxxxxx     xxxxxxx           xxxxxxx
   0008         EAR-0323704      xxxxxxx           xxxxxxx          xxxxxxx      xxxxxxx     xxxxxxx           xxxxxxx
   0009         EAR-0318549      xxxxxxx           xxxxxxx          xxxxxxx      xxxxxxx     xxxxxxx           xxxxxxx
   0013 -03     EAR-0408228      xxxxxxx           xxxxxxx          xxxxxxx      xxxxxxx     xxxxxxx           xxxxxxx
   0013 -08     EAR-0440399      xxxxxxx           xxxxxxx          xxxxxxx      xxxxxxx     xxxxxxx           xxxxxxx
   0014         EAR-0346147      xxxxxxx           xxxxxxx          xxxxxxx      xxxxxxx     xxxxxxx           xxxxxxx
   0015         Various PO's     xxxxxxx           xxxxxxx          xxxxxxx      xxxxxxx     xxxxxxx           xxxxxxx
   0017         EAR-0453975      xxxxxxx           xxxxxxx          xxxxxxx      xxxxxxx     xxxxxxx           xxxxxxx




                                                                 8
                                                         OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029



                                                                                                                              EXHIBIT C
                                                                                                                               Page 2 of 6

                                                 Schedule of Allowable Costs by Grant
                                                               FY 2004

                                         Audit                Audit
                                    Recommended         Recommended
                                   Participant Suppt    Matls & Supplies                                                  First $25K
      Project #    Job Grant No.        (Note 1)            (Note 1)       Publications   Consultants   Computer Serv    Subawards
     0001         EAR-0200066               xxxxxxx             xxxxxxx       xxxxxxx        xxxxxxx        xxxxxxx     $          -
     0002         EAR-0229402               xxxxxxx             xxxxxxx       xxxxxxx        xxxxxxx        xxxxxxx     $          -
     0003         EAR-0207982               xxxxxxx             xxxxxxx       xxxxxxx        xxxxxxx        xxxxxxx     $          -
     0004         EAR-0214355               xxxxxxx             xxxxxxx       xxxxxxx        xxxxxxx        xxxxxxx     $          -
     0005         EAR-0331712               xxxxxxx             xxxxxxx       xxxxxxx        xxxxxxx        xxxxxxx     $          -
     0006         EAR-0321760               xxxxxxx             xxxxxxx       xxxxxxx       xxxxxxx         xxxxxxx     $      25,000
     0013 Rest    EAR-0321760               xxxxxxx             xxxxxxx       xxxxxxx        xxxxxxx        xxxxxxx     $          -
     0007         EAR-0323700               xxxxxxx             xxxxxxx       xxxxxxx       xxxxxxx         xxxxxxx     $      25,000
     0008         EAR-0323704               xxxxxxx             xxxxxxx       xxxxxxx        xxxxxxx        xxxxxxx     $          -
     0009         EAR-0318549               xxxxxxx             xxxxxxx       xxxxxxx        xxxxxxx         xxxxxxx    $     168,877
     0013 -03     EAR-0408228               xxxxxxx             xxxxxxx       xxxxxxx        xxxxxxx        xxxxxxx     $          -
     0013 -08     EAR-0440399               xxxxxxx             xxxxxxx       xxxxxxx        xxxxxxx        xxxxxxx     $          -
     0014         EAR-0346147               xxxxxxx             xxxxxxx       xxxxxxx        xxxxxxx        xxxxxxx     $          -
     0015         Various PO's              xxxxxxx             xxxxxxx       xxxxxxx       xxxxxxx         xxxxxxx     $          -
     0017          EAR-0453975              xxxxxxx             xxxxxxx       xxxxxxx        xxxxxxx        xxxxxxx     $          -




                                                                 9
                                                       FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029




                                                                                                                                 EXHIBIT C
                                                                                                                                  Page 3 of 6

                                                  Schedule of Allowable Costs by Grant
                                                                FY 2004

                                                Audit            Audit            Audit                            G&A
                                            Recommended      Recommended      Recommended                       at Audited
                                              Facilities         Direct        Other Direct        Total      Recommended         Audited
                                Subawards     Allocation       Facilities         Costs           Direct           Rate        Recommended
 Project No.    Job Grant No.     (Note 3)     (Note 2)         (Note 1)         (Note 1)          Costs         16.44%            Total
0001           EAR-0200066      $       -   $           -    $          660   $         340   $      19,406   $          207   $     19,612
0002           EAR-0229402      $       -   $           -    $           -    $          -    $          -    $          -     $          -
0003           EAR-0207982      $       -   $           -    $           -    $          -    $          -    $          -     $          -
0004           EAR-0214355      $       -   $           -    $           -    $          -    $     130,247   $       2,105    $    132,352
0005           EAR-0331712      $       -   $           -                     $          -    $          -    $          -     $          -
0006           EAR-0321760      $     9,602 $     285,029    $      44,005    $      57,393   $   2,300,632   $     367,239    $ 2,667,871
0013 Rest      EAR-0321760                                                    $       8,995   $     395,642   $      38,098    $    433,740
0007           EAR-0323700      $   252,168   $    264,934   $     212,255    $ 1,154,495     $   8,416,940   $ 1,105,163      $ 9,522,104
0008           EAR-0323704      $       -     $        -     $      13,761    $      22,244   $      36,417   $       5,987    $     42,404
0009           EAR-0318549      $   961,524   $      5,559   $       8,553    $       2,943   $   1,454,938   $      62,180    $ 1,517,118
0013 -03       EAR-0408228      $       -     $        -     $         -      $         663   $      78,105   $      12,840    $     90,945
0013 -08       EAR-0440399      $       -     $        -     $       3,434    $          -    $      31,000   $       2,800    $     33,800
0014           EAR-0346147      $       -     $        -     $         -      $         931   $      19,350   $          161   $     19,511
0015           Various PO's     $       -     $        -     $         188    $      20,433   $     216,625   $      14,899    $    231,523
0017            EAR-0453975     $       -     $        -     $         -      $          -    $          -    $          -     $          -




                                                               10
                                                     FOR OFFICIAL USE ONLY
  Audit Report No. 3121-2004J10100029

                                                                                   EXHIBIT C
                                                                                    Page 4 of 6


  Explanatory Notes

  1.      Direct Cost Increase

          a.        Summary of Conclusions:

              We recommend an upward adjustment of $33,851, as outlined below
  because UNAVCO did not include these reimbursable costs in its incurred cost claim.

Facilities Charge        xxxxx      Facilities Charge     xxxxx      Facilities Charge     xxxxx
Matls Supplies           xxxxx      Matls Supplies        xxxxx      Matls Supplies        xxxxx
Other Costs              xxxxx      Other Costs           xxxxx      Other Costs           xxxxx
Part Supp Travel         xxxxx      Part Supp Travel      xxxxx      Part Supp Travel      xxxxx
Travel Domestic          xxxxx      Travel Domestic       xxxxx      Travel Domestic       xxxxx
   Subtotal              $ 18,618      Subtotal           $ 10,155      Subtotal           $ 5,078   $ 33,851



          b.        Basis of Auditee’s Cost:

                  UNAVCO proposed its final rates using the FY 2004 actual costs charged
  into the direct projects and the three indirect cost pools.

          c.        Audit Evaluation:

                    We performed the following audit procedures:

                    •   Reconciled the Auditee's claimed direct costs to its general ledger.
                    •   Verified claimed costs are allowable according to Circular A-122,
                        Attachment B and UNAVCO’s Cost Policy and Procedures.
                    •   Recommended an upward adjustment between the difference claimed
                        in UNAVCO’s incurred cost submission and those costs recorded in
                        its general ledger.




                                             11
                                     OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029

                                                                                EXHIBIT C
                                                                                 Page 5 of 6

       d.      Auditee’s Reaction:

                UNAVCO concurred in the recommended upward adjustment to direct
claimed costs in its incurred cost submission. See Appendix 9 for the Auditee’s full
response.

2.     Facilities Allocation Adjustment

       a.      Summary of Conclusions:

                We questioned $7,921 of the facility pool costs. Therefore, the facility
allocation to the direct grants was decreased by $7,921 as shown below.

                                                Recommended
                   Project Allocation   Claimed   Adjustment      Allowable
               EAR-0321760              $ 289,093   $     4,064   $ 285,029
               EAR-0323700              $ 268,712   $     3,778   $ 264,934
               EAR-0318549              $ 5,638     $        79   $   5,559
                   Total                $ 563,443   $     7,921   $ 555,522

       b.      Basis of Auditee’s Cost:

               UNAVCO proposed its final rates using the FY 2004 actual costs charged
       into the direct projects and the three indirect cost pools.

       c.      Audit Evaluation:

               We performed the following audit procedures:

               •     Reconciled the Auditee's claimed direct costs to its general ledger.
               •     Verified claimed costs are allowable according to Circular A-122,
                     Attachment B and UNAVCO’s Cost Policy and Procedures.
               •     Questioned the difference between the claimed facility allocation costs
                     and the audited recommended facility allocation cost.

       d.      Auditee’s Reaction:

               UNAVCO concurred in the recommended upward adjustment and the
questioned facility allocation. See Appendix 9 for the Auditee’s full response.




                                          12
                                FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029

                                                                             EXHIBIT C
                                                                              Page 6 of 6

3.     Sub-award Assist Audits

       a.     Summary of Conclusions:

                After receiving the requested sub-award assist audits for Grant Nos. EAR-
0318549 and EAR-0323700, we noted that both reports had no exceptions. Copies of the
assist audit reports are found in Appendixes 7 and 8 beginning on page 29.

       b.     Basis of Auditee’s Cost:

              UNAVCO proposed its sub-award costs using the FY 2004 actual costs
       recorded in its general ledger.

       c.     Audit Evaluation

              We performed the following procedure:

              •   Requested sub-award detail for all claimed sub-award costs.
              •   Selected the two highest sub-award recipients and requested assist
                  audits from the cognizant DCAA office.




                                       13
                             FOR OFFICIAL USE ONLY
   Audit Report No. 3121-2004J10100029



                                                                                                                                                 EXHIBIT D
                                                                                                                                                  Page 1 of 2
                                               Summary Schedule of Cumulative Allowable Costs/Amounts
                                                   on Cost/Reimbursable Grants and Sub-Recipients
                                                                     FY 2004

                                                   Audited
                                 Unaudited     Recommended                  Dir & Indir                                              Total          Assist
                                Direct Costs     Direct Costs               Costs using                                Less        Allowable      Amounts
                                    FY                FY                  Unsetteled Rates*                          Contract        Costs       Included in Ready
                                12/31/2002        12/31/2003        Fee          FY           Fee                   Limitation   (Include Fee)      Total     to
 Project No.    Job Grant No.     (Note 1)         (Note 2)       FY 2003   12/31/2004      FY 2004     Subtotal     (Note 3)       (Note 4)       (Note 5)  Close
0001           EAR-0200066      $ 91,925        $     153,607     $ -     $          19,612 $ -       $ 265,145     $     -      $ 265,145       $       -     Y
0002           EAR-0229402      $ 152,256       $     556,745     $ -     $             -   $ -       $ 709,001     $     -      $ 709,001       $       -     Y
0003           EAR-0207982      $ 50,000        $      (10,316)   $ -     $             -   $ -       $    39,684   $     -      $     39,684    $       -     Y
0004           EAR-0214355      $       -       $     159,516     $ -     $         132,352 $ -       $ 291,868     $     -      $ 291,868       $       -     N
0005           EAR-0331712      $       -       $       35,756    $ -     $             -   $ -       $    35,756   $     -      $     35,756    $       -     N
0006           EAR-0321760      $       -       $ 1,059,529       $25,000 $       2,667,871 $40,000   $ 3,792,400   $     -      $ 3,792,400     $       -     N
0013           EAR-0321760      $       -       $       55,285    $ -     $         433,740 $ -       $ 489,025     $     -      $ 489,025       $       -     N
0007           EAR-0323700      $       -       $     735,735     $25,000 $       9,522,104 $25,000   ##########    $     -      $10,307,839     $       -     N
0008           EAR-0323704      $       -       $          -      $ -     $          42,404 $ -       $    42,404   $     -      $     42,404    $       -     N
0009           EAR-0318549      $       -       $     113,616     $ -     $       1,517,118 $ -       $ 1,630,734   $     -      $ 1,630,734     $       -     N
0013 -03       EAR-0408228      $       -       $        6,080    $ -     $          90,945 $ -       $    97,025   $     -      $     97,025    $       -     N
0013 -08       EAR-0440399      $       -       $          -      $ -     $          33,800 $ -       $    33,800   $     -      $     33,800    $       -     N
0014           EAR-0346147      $       -       $          -      $ -     $          19,511 $ -       $    19,511   $     -      $     19,511    $       -     N
0015           Various PO's     $       -       $          301    $ -     $         231,523 $ -       $ 231,824     $     -      $ 231,824       $       -     N
0017            EAR-0453975     $       -       $          -      $ -     $             -   $ -       $       -     $     -      $         -     $       -     N

   See next page for notes.




                                                                            14
                                                                    OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029

                                                                                     EXHIBIT D
                                                                                      Page 2 of 2


        *The rates used for FY 2004 are the audit recommended rates. Although UNAVCO
concurred in the audit recommended rates, these rates are subject to Contracting Officer (CO)
negotiation. Upon receipt of negotiated final rates from the CO, we will provide a supplemental
Final CACWS if negotiated rates differ from audit recommended rates. For those grants
identified as “Ready to Close,” the information on the Final CACWS should be used to close out
grants. Individual grant audit closing statements will only be issued if requested by the CO.


Notes:

(1) These are direct costs by grant for FY 2002. However, NSF did not request DCAA to audit
FY 2002 direct costs claimed by UNAVCO.
(2) These are direct costs by grant for FY 2003.
(3) Grant limitation include costs incurred that are (i) in excess of grant ceiling rates, (ii)
unallowable per grant, (iii) outside the period of performance, or (iv) in excess of grant ceiling
amounts that are not already excluded.
(4) The cumulative allowable amounts in this column, including fee, are not to exceed grant-
ceiling amounts.
(5) Costs in this column are considered unresolved pending sub-recipient completion and receipt
of final cumulative allowable sub-recipient costs. See the attached supporting schedule for
details of sub-recipients included in this amount.




                                           15
                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                      AUDITEE ORGANIZATION AND SYSTEMS

1. Organization:

       UNAVCO, Inc. is a non-profit membership-governed organization founded by the
   National Science Foundation and NASA that supports earth science by advancing high-
   precision geodetic techniques such as the Global Positioning System (GPS). It is the
   operating arm of the 100-member international consortium of universities using GPS for
   scientific research, supporting research into earth processes and hazards via GPS geodesy,
   and developing and supporting new low-cost GPS technology.


       UNAVCO, Inc. was created as an independent non-profit corporation in 2001, after
   splitting off from the University Corporation for Atmospheric research (UCAR). UNAVCO
   employs 85 people. Grants for fiscal year ended 2004 were $14.7 million.

2. Accounting System:

          We noted UNAVCO changed its Accounting System Policies and Procedures in
   March 2005. Therefore, the accounting system performed August 1, 2005 would not be
   applicable to incurred costs claimed in FY 2004. As a result, our examination reflects our
   assessment of control risk and includes tests of compliance with laws and regulations that we
   believe provide a reasonable basis for our opinion.

          UNAVCO’s accounting period is from January 1 to December 31. UNAVCO
   maintains an accounting system on the accrual basis in accordance with generally accepted
   accounting principles. UNAVCO’s accounting system is posted on a current basis.
   Appropriate adjusting entries are made at the end of each month and at year end. UNAVCO
   prepares financial statements on an annual basis. The annual financial statements are audited
   by external CPAs.

           UNAVCO maintains a job cost accounting system which is fully integrated in the
   overall accounting system, wherein grants are assigned individual project numbers and direct
   costs are identified and charged to those numbers. Indirect costs are identified with and
   accumulated under individual departments, which in turn are identified to the various indirect
   cost pools. Indirect expenses are recorded and billed to projects using provisional rates. The
   previsional rates are adjusted to actual rates at year end. The following schedule describes
   UNAVCO’s indirect cost pools and related allocation bases, and the type of effort normally
   charged direct and indirect:




                                          16
                                FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029



                         Indirect Cost Pools and Allocation Bases

   Indirect Cost Pool                            Allocation Base
   Fringe Benefit Rate                           Work-Time Salaries and Wages
   Temp Fringe Benefit Rate                      Student Assistants/Temporary personnel
                                                 with only statutory benefits
   Common Facility Rate (Building at 5350        Net Assignable Square Feet (NASF)
   Nautilus in Boulder)
   General & Administrative (G&A) Rate           Modified Total Direct Cost (MTDC)




                                        17
                              FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                      DCAA PERSONNEL

                                                                       Telephone No.
Primary contacts regarding this audit:

         Madeleine G. Peterson, Auditor                     (303) 969-5000
         Randy Ice, Auditor                                 (303) 969-5000
         Larry N. Koppenhaver, Supervisory Auditor          (303) 969-5000

Other contact regarding this audit report:

         S. M. Wenger, Branch Manager                       (303) 969-5000

                                                                        FAX No.
         Denver Branch Office                               (303) 969-5056

                                                                     E-mail Address
         Denver Branch Office                               dcaa-fao3121@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil.

                                      RELEVANT DATES

       Request for Audit: NSF – Dated July 1, 2005 and received July 11, 2005

AUDIT REPORT AUTHORIZED BY:



                                                           /s/ Larry N. Koppenhaver for
                                                           S. M. WENGER
                                                           Branch Manager




                                           18
                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                 AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
                                                                           E-mail Address
Office of Inspector General
ATTN: Deborah H. Cureton                                                  dcureton@nsf.gov
Associate Inspector General for Audit
National Science Foundation
4201 Wilson Boulevard
Arlington, VA 22230

Senior Audit Manager                                                      jcjenkin@nsf.gov
Ms. Jannifer Jenkins
National Science Foundation
4201 Wilson Boulevard
Arlington, VA 22230

Audit Manager
Mr. David Eid                                                               deid@nsf.gov
National Science Foundation
4201 Wilson Boulevard
Arlington, VA 22230

Attorney Advisor
Ms. Sharon McGregor                                                      smcgrego@nsf.gov
National Science Foundation
4201 Wilson Boulevard

UNAVCO, Inc.
6350 Nautilus Drive
Boulder, CO 80301
(Copy furnished thru NSF)


RESTRICTIONS

1. Information contained in this audit report may be proprietary. It is not practical to identify
   during the conduct of the audit those elements of the data which are proprietary. Make
   proprietary determinations in the event of an external request for access. Consider the
   restrictions of 18 U.S.C. 1905 before releasing this information to the public.

2. Under the provisions of Title 32, Code of Federal Regulations, Part 290.7(b), DCAA will
   refer any Freedom of Information Act requests for audit reports received to the cognizant
   contracting agency for determination as to releasability and a direct response to the
   requestor.


                                           19
                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029

3. Do not use the information contained in this audit report for purposes other than action on the
   subject of this audit without first discussing its applicability with the auditor.




                                           20
                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                                                     APPENDIX 1
                                                                                       Page 1 of 2

                          OTHER MATTERS TO BE REPORTED
                      EXECUTIVE COMPENSATION REVIEW FY 2004

       As you requested, following is the DCAA Mid-Atlantic Executive Compensation Team
analysis of executive compensation for FY 2004. DCAA evaluated compensation paid to the
executives of UNAVCO and no exceptions were noted. Results follow:

                                      CLAIMED                                        SURVEY
                                        CASH        (A)           (B)      (C)      AVERAGE
 CFYE     BUDGET     EXECUTIVE          COMP        ERI          ECS      PRM       + 10% ROR DIFFERENCE
 Dec-04    $14.7M  Executive Director xxxxxxxxx xxxxxxxxx     xxxxxxxxx xxxxxxxxx   xxxxxxxxx   xxxxxxxxx
                       President      xxxxxxxxx xxxxxxxxx     xxxxxxxxx xxxxxxxxx   xxxxxxxxx   xxxxxxxxx
                          CFO         xxxxxxxxx xxxxxxxxx     xxxxxxxxx xxxxxxxxx   xxxxxxxxx   xxxxxxxxx
                     PBO Director     xxxxxxxxx xxxxxxxxx     xxxxxxxxx xxxxxxxxx   xxxxxxxxx   xxxxxxxxx
                     Facility Mgr.    xxxxxxxxx xxxxxxxxx     xxxxxxxxx xxxxxxxxx   xxxxxxxxx   xxxxxxxxx
                     Dir. Contracts   xxxxxxxxx xxxxxxxxx     xxxxxxxxx xxxxxxxxx   xxxxxxxxx   xxxxxxxxx
                    Head Fac. Eng.    xxxxxxxxx xxxxxxxxx     xxxxxxxxx xxxxxxxxx   xxxxxxxxx   xxxxxxxxx
                  TOTAL               $ 865,433 $ 1,054,331    $976,283 $612,515               $       613

Surveys Used In This Analysis:

(A) ERI - Economic Research Institute Executive Compensation Assessor; 2005 edition;
Noncommercial Research Organization Industry based on SIC Code 8733; top executive
positions (CEO, COO, CFO, Vice President Administration, Vice President, Contract
Admninistration Director, and Engineering Director); total median cash compensation survey
data; survey data aged as appropriate.

(B) ECS - Watson Wyatt Data Services, 04/05 edition; Top Management Comp Calculator;
Industry Supersector: All Non Manufacturing; top executive positions (CEO, COO, CFO, Top
Sector/Group Executive, Top Facility Management Executive, Top Contracts Executive, and
Top Engineering Executive); total median cash compensation related to sales; survey data aged
as appropriate.

 (C) PRM - 2003 Management Compensation Report-Not-For-Profit Organizations conducted
by PRM Consulting, Inc.; top executive positions (Top Executive Officer, Deputy Executive
Officer, Top Financial Position, Top Administrative Position, and Top Engineering Position);
total median cash compensation related to an Organization Budget between $10 million to $14.9
million and $15 million to $24.9 million for Not-For-Profit Organizations; survey data aged as
appropriate.




                                           21
                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                                               APPENDIX 1
                                                                                 Page 2 of 2


Summary:

       Based on this audit analysis, we have determined the claimed executive cash
compensation (salary) for the top executives of UNAVCO, Inc. during the auditee's fiscal year
ending December 2004 is reasonable under OMB Circular's A-21, A-122, and A-133. We
consider the questioned costs of $613 immaterial. We have deemed pension and health/life
insurance reasonable based on a cursory examination. The audit position is based on
comparisons with the same or similar executive positions from firms of the same size and
industry as UNAVCO, Inc. All survey data was aged to the CFY 6/30 midpoint using Salary
Budget Trend Data as published by WorldatWork. Our determination is based on a three survey
composite with a 10 percent Range of Reasonableness (ROR) in accordance with the generally
accepted compensation practices. Actual claimed compensation above relates to amounts shown
on the Denver Branch Office request from xxxxxxxxxxxxxxxxxxxxxxx dated August 10, 2005.




                                         22
                               FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                                                         APPENDIX 2
                                                                                           Page 1 of 2

                              OTHER MATTERS TO BE REPORTED
                                     SEVERANCE PAY

       As you requested, following is the DCAA Mid-Atlantic Executive Compensation Team
analysis of the severance package paid to xxxxxxxxxxxxxxxxxxxx. We agreed that the DCAA
severance analysis is for informational purposes only because the severance package is covered
under a separation agreement between NSF, UNAVCO, and xxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxx

        DCAA evaluated the severance package paid to xxxxxxxxxx. We also reviewed
UNAVCO's severance policies and procedures to ensure they are compliant with the A-133 rules
and regulations. In addition, we verified severance paid to xxxxxxxxxx did not exceed the
separation agreement established by the NSF grant officer. Results follow:

2.        Severance Review FY 2004
                                                             BASE SALARY                SURVEY
                                                        (A)        (B)        (C)      AVERAGE      REASONABLE
 CFYE      BUDGET      EXECUTIVE       SEVERANCE        ERI        ECS       PRM       + 10% ROR SEVERANCE *
 Dec-04     $14.7M   xxxxxxxxxxxxxxx xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx xxxxxxxxxxxxxxx



*Calculation of Reasonable Severance:

Executive Position: xxxxxxxxxxxxxxxx
Years of Services - xxxxxxxx
Weekly Salary (xxxxxxxxxxxxxxxx)                          xxxxxx
2 Weeks of Salary per years of service                   X     26 weeks
Recommended Severance Amount                             $ xxxxxx


Surveys Utilized In The Base Salary Analysis:

(A) ERI - Economic Research Institute Executive Compensation Assessor; 2005 edition;
Noncommercial Research Organization Industry based on SIC Code 8733; top executive position
(CEO); total base salary compensation survey data; survey data aged as appropriate.
(B) ECS - Watson Wyatt Data Services, 04/05 edition; Top Management Comp Calculator;
Industry Supersector: All Non Manufacturing; top executive position (CEO); total base salary
related to sales; survey data aged as appropriate.
 (C) PRM - 2003 Management Compensation Report-Not-For-Profit Organizations conducted
by PRM Consulting, Inc.; top executive position (Top Executive Officer); base salary related to
an Organization Budget between $10 million to $14.9 million for Not-For-Profit Organizations;
survey data aged as appropriate.


                                              23
                                    FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                                               APPENDIX 2
                                                                                 Page 2 of 2

Surveys Utilized In The Severance Analysis:

Global Severance Practice Survey by Right Management Consultants, 2002 Edition
Severance and Change in Control Plans conducted by WorldatWork and Aon Consulting,
2003-04

Summary:

        Based on this audit analysis, we have determined the severance for the xxxxxx xxxxxxx
of UNAVCO, Inc. during the auditee's Fiscal Year ending December 2004 is unreasonable in the
amount of xxxxxx (xxxxxx - xxxxxx) under OMB Circular's A-21, A-122, and A-133. Our
severance determination is based on two reputable published severance pay surveys. Our base
salary determination is based on a three survey composite with a 10 percent Range of
Reasonableness (ROR) in accordance with the generally accepted compensation practices.
Actual claimed compensation above relates to amounts shown on the Denver Branch Office
request from xxxxxx xxxxxx xxxxxx dated August 10, 2005.




                                         24
                               FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                                             APPENDIX 3
                                                                               Page 1 of 1

                     OTHER MATTERS TO BE REPORTED
        VERIFICATION OF SEVERANCE PAID TO xxxxxx xxxxxx xxxxxx xxxxxx

       UNAVCO, Inc. agreed to pay xxxxxx xxxxxx, xxxxxxxxxxxxxx total severance of
xxxxxx. However, NSF did not agree with the severance agreement, but agreed to xxxxxx.
The balance of xxxxxx (xxxxxx - xxxxxx) paid to Mr. Shiver was to be recorded as an
unallowable expense and not to be reimbursed by NSF.

       We verified xxxxxx of executive compensation expenses paid to the xxxxxxxxxxxxxxxx
was recorded as an unallowable cost and not included in UNAVCO’s FY 2004 incurred cost
submission as a direct or indirect expense.




                                         25
                               FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                                                   APPENDIX 4
                                                                                     Page 1 of 1
                           OTHER MATTERS TO BE REPORTED

                        GOVERNMENT OWNED EQUIPMENT AND
                        CONTROL OF MATERIALS AND SUPPLIES

        We evaluated UNAVCO’s policies and procedures for accounting and inventorying
government and UNAVO-owned equipment. We randomly selected various items of equipment
from the Government owned equipment list and from the UNAVCO-owned equipment list. We
verified the selected equipment was on the proper list per UNAVCO’S policy. We also verified
the existence of the randomly selected equipment. We verified UNAVCO did not include
depreciation costs for the government-owned equipment contained in its FY 2004 incurred cost
claim.
        During our evaluation, we found that UNAVCO had purchased about 400 items with a
value of about $590 thousand. Because these items, such as laptop computers, receivers,
computers, generators, and digital cameras had a value of less than $2,500, they were classified
as materials and supplies. Although UNAVCO placed inventory bar codes on these items and
placed them on a tracking list, it has not inventoried these items. When we randomly selected
various items from this tracking list, we verified their existence. While we did not disclose any
missing equipment purchased as materials and supplies, we recommend UNAVCO perform the
following:

           •   Develop policies and procedures to require:

                  ⋅   identifying items that require greater control and assign individual
                      responsibility for these items
                  ⋅   conducting inventories of control items at least annually, and other items
                      on a rotating basis.




                                           26
                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                                                    APPENDIX 5
                                                                                      Page 1 of 1
                          OTHER MATTERS TO BE REPORTED
                       TRAVEL COST POLICIES AND PROCEDURES

       Although not considered significant for FY 2004, we found the employees of UNAVCO
included unallowable travel expenses in their reimbursable travel claims, ie. flowers for a new
baby, missing receipts, and meals claimed over the Federal Travel Regulations (FTR) allowable
per diem. We recommend UNAVCO provide its employees with a yearly refresher of its policy
on travel and the costs that are allowable in accordance with its policy and procedures and that of
OMB Circular A-122, Attachment B, 51.




                                           27
                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029



                                                   APPENDIX 6
                                                     Page 1 of 1




                                     28
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029




                                                   APPENDIX 7
                                                    Page 1 OF 6




                                     29
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                   APPENDIX 7
                                                    Page 2 OF 6




                                     30
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                   APPENDIX 7
                                                    Page 3 OF 6




                                     31
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                   APPENDIX 7
                                                    Page 4 OF 6




                                     32
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                   APPENDIX 7
                                                    Page 5 OF 6




                                     33
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                   APPENDIX 7
                                                    Page 6 OF 6




                                     34
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                   APPENDIX 8
                                                    Page 1 OF 7




                                     35
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                   APPENDIX 8
                                                    Page 2 OF 7




                                     36
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                   APPENDIX 8
                                                    Page 3 OF 7




                                     37
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                   APPENDIX 8
                                                    Page 4 OF 7




                                     38
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                   APPENDIX 8
                                                    Page 5 OF 7




                                     39
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                   APPENDIX 8
                                                    Page 6 OF 7




                                     40
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                   APPENDIX 8
                                                    Page 7 OF 7




                                     41
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                     APPENDIX 9
                                                      Page 1 OF 3
                                Auditee’s Response




                                     42
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                   APPENDIX 9
                                                    Page 2 OF 3




                                     43
                           FOR OFFICIAL USE ONLY
Audit Report No. 3121-2004J10100029


                                                   APPENDIX 9
                                                    Page 3 OF 3




                                     44
                           FOR OFFICIAL USE ONLY
